     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




    Weaknesses in Reporting and Coordination of
Development Assistance and Lack of Provincial Capacity
   Pose Risks to U.S. Strategy in Nangarhar Province




                                         October 26, 2010


SIGAR Audit -11-1 Anti-Corruption/Sub-National Governance
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION

October 26, 2010

The Honorable Robert Gates
U.S. Secretary of Defense
The Honorable Hillary Rodham Clinton
U.S. Secretary of State
The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan
General David Petraeus
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force
Dr. Rajiv Shah
Administrator
U.S. Agency for International Development
Mr. Earl Gast
USAID Mission Director to Afghanistan
This report presents the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of U.S. development funds expended in Afghanistan’s Nangarhar
Province. The report includes five recommendations to help ensure that the government of Afghanistan
and U.S. personnel are aware of provincial-level U.S. development activities, priorities, and
expenditures; the Afghanistan government develops an accurate picture of provincial-level expenditures
for the external budget; U.S. development funds expended in Nangarhar are used to further cohesive,
Afghan provincial development priorities; the government of Afghanistan sustains completed U.S.
development projects; and, Nangarhar’s provincial directorates develop the capacity to absorb
additional development funds and implement projects.

A summary of this report is on page ii. This performance audit was conducted by SIGAR under the
authority of Public Law No. 110-181 and the Inspector General Act of 1978, as amended. When
preparing the final report, we considered comments from U.S. Forces-Afghanistan and U.S. Embassy
Kabul. These comments indicated concurrence with our findings and recommendations. Copies of these
comments are included, respectively, in appendices VIII and IX of this report.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
   for Afghanistan Reconstruction



SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                        Page i
                                                           SIGAR Audit-11-1                                           October 2010


                SIGAR                                         Weaknesses in Reporting and Coordination of
                                                              Development Assistance and Lack of Provincial
                                                                  Capacity Pose Risks to U.S Strategy in
Special Inspector General for Afghanistan Reconstruction                  Nangarhar Province
What SIGAR Reviewed
Enhancing sub-national governance is essential to building the government of Afghanistan’s capacity and linking Afghan
citizens to their government. The success of the U.S. government’s new funding strategy—channeling significantly more
development funding through the Afghan government—will depend largely on the capacity of provincial
administrations to manage development funding to achieve coherent and cohesive development objectives. This report
assesses (1) the amount and type of U.S., Afghan, and donor development funding expended in Nangarhar Province;
(2) the degree to which U.S. projects are aligned with Nangarhar’s development priorities; and (3) the extent to which
Nangarhar’s provincial administration is prepared to absorb and execute additional development funds. SIGAR
conducted this performance audit in Kabul and Nangarhar, Afghanistan, from May to September 2010 in accordance
with generally accepted government auditing standards.

What SIGAR Found
The centralized nature of the Afghan government, the lack of donor reporting, and the scope of some development projects
make identifying and assessing the total amount of development funds expended in Nangarhar problematic. Nangarhar
receives both operating and development funds from various sources, including the Afghan government, international donors,
and other stakeholders. Nangarhar’s provincial directorates and offices expend about 85 percent ($51.3 million) of the core
operating budget on wages and salaries, and 4 percent of core budget expenditures on development. The U.S. government
and other donors fund most of the development in Nangarhar, including more than $100 million in estimated U.S.
development activities identified by SIGAR during fiscal year 2009. However, donors, including the United States, do not track,
report, or coordinate provincial funding with other donors.
U.S. government agencies providing development funds and assistance to Nangarhar have made some progress in aligning
development projects and programs with provincial priorities. However, U.S. government development projects and programs
are currently being implemented without the benefit of provincially generated, government of Afghanistan endorsed
development priorities. Nangarhar Province does not have a functioning development planning process or provincial
development plan. For example, Nangarhar Province’s completed provincial development plan is outdated, not tied to any
dedicated funding, and largely ignored by Afghanistan’s national and provincial government, the U.S. government, and the
international community. Moreover, according to SIGAR analysis and several senior U.S. officials responsible for multi-million
dollar development projects in Nangarhar Province, many U.S.-funded development projects in Nangarhar are not being
sustained by the Afghanistan government. Furthermore, the government of Afghanistan lacks visibility over and or input into
many externally funded and implemented development projects, and donors in Nangarhar have not effectively coordinated
their efforts.
The level of centralization and lack of procurement authority and budget input has left Nangarhar’s line directorates with little
capacity to absorb significantly more development funding. Any control or influence Nangarhar Province has over public
resources comes through its ability to shape the national budget or its influence over budget execution. Nangarhar’s line
directorates play a limited role in development activities in Nangarhar. Nearly all of the Afghan government’s core
development activities are centralized in Kabul at the ministry level.

What SIGAR Recommends
The report includes five recommendations to help prevent waste in the implementation of U.S. development projects in
Nangarhar, and to help ensure that the government of Afghanistan and U.S. personnel are aware of provincial-level U.S.
development activities, priorities, and expenditures; the Afghan government can develop an accurate picture of
provincial-level expenditures for the external budget; U.S. development funds expended in Nangarhar are used to
further Afghan provincial development priorities; the Afghan government is able to sustain completed U.S.
development projects; and Nangarhar’s provincial directorates are able to develop the capacity to absorb additional
development funds and implement projects.
In response to a draft of the report, U.S.Forces-Afghanistan and U.S. Embassy Kabul indicated general concurrence with
the recommendations. U.S.Forces-Afghanistan outlined steps it would take to address the recommendation to help
ensure that CERP projects are sustained by the Afghan government. While U.S. Embassy Kabul generally agreed with
the findings and recommendations, it did not indicate how it would address the recommendations.

                    For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil


SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                                      Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 1
Development Funding in Nangarhar is Not Well Reported or Coordinated................................................. 3
U.S. Development Projects and Programs in Nangarhar Are Not Tied to Cohesive
    Provincial Development Priorities and are Implemented without
    Government of Afghanistan Input ......................................................................................................... 8
Nangarhar’s Line Directorates Lack the Capacity Necessary to Absorb
    Significantly More Development Funding ............................................................................................ 12
Conclusion ................................................................................................................................................... 16
Recommendations ...................................................................................................................................... 16
Comments ................................................................................................................................................... 17
Appendix I: Scope and Methodology ......................................................................................................... 19
Appendix II: Government of Afghanistan Core Budget Information ......................................................... 21
Appendix III: Nangarhar Province Core Budget Information ...................................................................... 26
Appendix IV: CERP Budget Information in Nangarhar Province ................................................................. 29
Appendix V: USAID Budget Information in Nangarhar Province ................................................................ 30
Appendix VI: State Department Budget Information in Nangarhar Province ............................................ 34
Appendix VII: Un-Habitat Activities in Nangarhar Province........................................................................ 35
Appendix VIII: Comments from U.S. Forces – Afghanistan ........................................................................ 36
Appendix IX: Comments from the U.S. Embassy Kabul .............................................................................. 37


TABLES

Table 1: Nangarhar’s SY 1388 and SY 1389 (Partial Year) Core Development
    Budget Execution.................................................................................................................................... 6
Table 2: UN Agencies with Projects in Nangarhar Province, FY 2009 ........................................................... 7
Table 3: Core Development Budget Funds Executed by Line Directorates in
    Nangarhar Province, SY 1389 (March – June 2010) ............................................................................. 15
Table I: Government of Afghanistan Total Operating and Development Budget,
    SY 1388 ................................................................................................................................................. 23
Table II: Government of Afghanistan Operating Budget by Code, SY 1388................................................ 24
Table III: Government of Afghanistan Operating Budget by Economic Category,
    SY 1388 ................................................................................................................................................. 24
Table IV: Government of Afghanistan Core Development Budget by Sector,
    SY 1388 ................................................................................................................................................. 25
Table V: Nangarhar Province Operating Budget by Budget Code, SY 1388 ................................................ 26
Table VI: Allocation of Nangarhar Province Operating Budget by Government
    Department, SY 1388............................................................................................................................ 27
Table VII: Nangarhar Province Consolidated Operating (by Budget Code) and
    Development Budget (by Ministry), SY 1388 ....................................................................................... 28
Table VIII: Total Obligations by CERP in Nangarhar Province by Project Category,
    October 1, 2008 to March 31, 2010 ..................................................................................................... 29
Table IX: Estimated USAID Disbursements and Percentages in Nangarhar
    Province by Primary Sector, FY 2009.................................................................................................... 30
Table X: USAID Implementing Partners in Nangarhar Province by Number of
    Projects and Sector, Fiscal Years 2009 and 2010 (Partial Year) ........................................................... 31


SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                                                              Page iii
Table XI: State Department Grants for Nangarhar Province, Fiscal Years 2009
    and 2010 (Partial Year) ......................................................................................................................... 34
Table XII: Budget and Expenditures for Performance Based Governor's Fund
    SY 1389 (Partial Year) for Nangarhar Province ..................................................................................... 34
Table XIII: Projects Conducted by UN-Habitat (United Nations Human
    Settlements Programme) in Nangarhar Province, FY 2009 .................................................................. 35


FIGURES AND PHOTOS

Figure 1: Map of Afghanistan Highlighting Nangarhar Province. ................................................................. 3
Figure 2: Nangarhar’s SY 1388 Recurrent Operating Budget, by Budget Code ............................................ 4
Figure 3: Nangarhar’s SY 1388 Recurring Operating Budget, by Ministry .................................................... 4
Figure I: Government of Afghanistan’s SY 1388 Budget, by Budget Code ................................................. 21
Figure II: Government of Afghanistan’s SY 1388 Recurring Operating Budget, by
    Economic Categories ............................................................................................................................ 22
Figure III: Estimated USAID Disbursements Percentages in Nangarhar Province
    by Primary Sector, FY 2009................................................................................................................... 30




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                                                      Page iv
ACRONYMS

ADT                      Agribusiness Development Team
ARTF                     Afghanistan Reconstruction Trust Fund
CERP                     Commander’s Emergency Response Program
MAAWS-A                  Money as a Weapon System – Afghanistan
MoF                      Ministry of Finance
NGO                      Non-governmental organization
O&M                      Operations and maintenance
PDC                      Provincial Development Committee
PDP                      Provincial Development Plan
PRT                      Provincial Reconstruction Team
SNGP                     Sub-national Governance Policy
TF                       Task Force
TWG                      Technical Working Group
UN                       United Nations
UNAMA                    United Nations Assistance Mission in Afghanistan
USAID                    U.S. Agency for International Development
USFOR-A                  U.S. Forces-Afghanistan




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                    Page v
Weaknesses in Reporting and Coordination of Development Assistance and Lack
   of Provincial Capacity Pose Risks to U.S. Strategy in Nangarhar Province


Since 2002, the majority of U.S. development assistance to Afghanistan has been managed by U.S.
agencies, bypassing the Afghan government. In January 2010, however, the United States and other
members of the international donor community committed to increasing the percentage of assistance
delivered through the Afghan government to 50 percent over the next two years. At the Kabul
Conference in July 2010, the international community reaffirmed this commitment. For the U.S.
government and international community to fulfill their commitment, the government of Afghanistan
must reduce corruption, improve financial management and budget execution, and increase the
capacity of the central and provincial government agencies to deliver public services.

The international community has ongoing initiatives to strengthen sub-national governance, which is
essential to building the government of Afghanistan’s capacity and linking Afghan citizens to their
government. The success of the international community’s new funding strategy also depends on the
capacity of provincial administrations to absorb and execute development funding to achieve coherent
and cohesive development objectives. As the government of Afghanistan moves to devolve additional
development authorities and channel more funds to the sub-national level, the capacity of these
institutions to absorb and execute development funding will be critical to the strategy’s success.

This report assesses (1) the amount and type of Afghan, U.S., and other donors’ development funding
expended in Nangarhar Province, (2) the degree to which U.S. projects are aligned with Nangarhar’s
development priorities, and (3) the extent to which Nangarhar’s provincial administration is prepared to
absorb and execute additional development funds. To accomplish these objectives, we reviewed
relevant U.S., Afghan, and international laws, policies, conventions, standards, and development
strategies. We interviewed officials from the Departments of Defense, State, Agriculture, and the
Treasury; the U.S. Agency for International Development (USAID); international organizations such as
the United Nations Assistance Mission in Afghanistan (UNAMA); Afghan government institutions in
Kabul and Nangarhar; and USAID implementing partners. We conducted our work in Kabul and
Nangarhar, Afghanistan, from May to September 2010 in accordance with generally accepted
government auditing standards. A discussion of our scope and methodology is included in appendix I.


BACKGROUND

Afghanistan is a centralized state with limited authority to govern at the provincial and sub-provincial
levels. The Afghan constitution defines provinces as administrative units of the central government;
municipalities are the only recognized type of local government. The provincial tier includes the
provincial directorates of central ministries, the governor’s offices, and the provincial council—an
elected body with oversight but no legislative authority. The provincial governors lead planning,
budgeting, and coordination. They oversee and monitor the activities of provincial line directorates to



SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                            Page 1
ensure that the directorates implement programs in accordance with provincial plans. The directors of
provincial departments are appointed and report to their respective central line ministries, although this
line of accountability is blurred by their relationship to provincial governors, who are also appointed
officials.

Chaired by governors (or the governor’s representative), Provincial Development Committees (PDC)
were established to coordinate the activities of the line ministries, prepare Provincial Development
Plans (PDP), improve donor coordination, monitor the implementation of development projects, and
enhance the capacity of the provincial administration for public administration and public service
delivery. PDC roles, functions, and membership vary by province, and the oversight and monitoring
activities of the PDCs and provincial councils overlap. In some provinces, including Nangarhar Province,
Technical Working Groups (TWG) serve as functional subcommittees for the PDC. Directors of provincial
line directorates—and perhaps other stakeholders—hold monthly meetings to discuss sectoral and
economic development, security, and education. TWGs often present development projects and
recommendations to the PDC.

Budgetary authority within the government of Afghanistan is centralized in Kabul, with budgets
allocated to central line ministries and other central government entities (appendix II contains more
information on the government of Afghanistan’s core budget). Governors and ministry directorates in
the provinces are not budgetary units. Despite efforts in recent years to involve provincial entities in the
budget process, they continue to have little or no say in budget formulation. The government of
Afghanistan’s budget provides funding for the central-level agencies, which in turn determine provincial
needs and allocations. As a result, the “provincial budget” is the sum of all ministerial funds allocated to
and expended by the provincial directorates of the central government.

Strategically situated along a primary gateway for trade with Pakistan, Nangarhar is the second highest
revenue-generating province in Afghanistan (see Figure 1 for map of Afghanistan identifying the location
of Nangarhar Province). Highway 1A is the most important trade route in the Eastern region, connecting
Kabul to Pakistan, with Torkham Gate serving as the border crossing at the Kyber Pass. Nangarhar’s
capital city Jalalabad serves as the cultural, political, and economic center of the eastern region.
Nangarhar is the most densely populated province in Afghanistan, with an estimated population of 1.85
million people, most of whom are ethnic Pashtuns. Nangarhar is considered the most stable province in
the eastern region, though the security situation has deteriorated significantly over the last year.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                              Page 2
     Figure 1: Map of Afghanistan Highlighting Nangarhar Province.




     Source:http://afghanistan.usaid.gov/en/province.22.aspx.




DEVELOPMENT FUNDING IN NANGARHAR IS NOT WELL REPORTED OR COORDINATED

The centralized nature of the Afghan government, the lack of donor reporting, and development
projects that span multiple provinces make identifying and assessing the total amount of development
funds expended in Nangarhar problematic. Nangarhar receives both operating and development funds
from various sources, including the Afghan government, international donors, and other stakeholders.
Nangarhar Province expends about 85 percent of its core operating budget on wages and salaries and
4 percent of core budget expenditures on development. The U.S. government and other donors fund
most of the development in Nangarhar but do not track funds or coordinate provincial funding with
other donors.

Nangarhar Province Expends 85 Percent of Its Core Operating Budget on Wages and Salaries

Nangarhar’s total core operating expenditures for solar year (SY) 1388, the most recent solar year for
which complete data are available, was $60,701,884. 1 Eighty-five percent of operating expenditures, or
$51.3 million, was used for salaries and wages (see figure 2 for a breakdown of Nangarhar Province’s
operating budget by budget code). The Afghan government’s 1388 budget notes that the high
percentage of the budget dedicated to wages and salaries is of serious concern because low spending on
goods and services can adversely affect service delivery.




1
 The 1388 solar year is the Afghanistan government’s fiscal year, from approximately March 22, 2009 to March 21,
2010.
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                 Page 3
     Figure 2: Nangarhar’s SY 1388 Recurrent Operating Budget, by Budget Code

                                   0%
                                 5%
                         11%                                   Wages and Salaries


                                                               Use of Goods and Services


                                                               Subsidies, Grants & Social
                                                               Expenditures
                                         85%                   Acquisition of Assets




     Source: SIGAR analysis of Ministry of Finance data.

     Note: Total does not equal 100 percent due to rounding.

Two provincial directorates—those of the Ministry of Interior and Education—received 72 percent of
Nangarhar’s operating budget in SY 1388. These two directorates primarily used their funding to pay for
the wages and salaries of police and teachers. As seen in figure 3, the remaining directorates received
28 percent of the total operating budget for the province (see appendix III for more detailed information
on Nangarhar’s core operating budget).


     Figure 3: Nangarhar’s SY 1388 Recurring Operating Budget, by Ministry

                                                               Ministry of Interior
                           13%
                                                               Ministry of Education
                    4%
                4%                                  38%
                                                               Ministry of Higher
                                                               Education
               7%
                                                               Ministry of Martyrs,
                                                               Disabled and Social Affairs
                                                               Ministry of Agriculture

                            33%                                All Other Ministries



     Source: SIGAR analysis of Ministry of Finance data.

     Note: Total does not equal 100 percent due to rounding.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                          Page 4
Government of Afghanistan Reporting Gaps Result in an Unclear Picture of the Development
Funds Provided in Nangarhar

The centralized nature of the Afghan budget and execution process, and development projects that
affect multiple provinces, make obtaining complete data on development funds in Nangarhar
problematic. 2 The government of Afghanistan does not collect data on core development funding
execution on a provincial basis. The central ministries in Kabul perform nearly all of the development
budget activities—including project approval, bidding, contractor selection, payment authorizations, and
payment disbursement—and provincial line directorates are generally uninvolved in these activities.
Although a development project may benefit a particular province, core development funds are rarely
allocated to or expended by provincial line directorates, and no centrally administered system exists to
capture data on projects by province. Although one ministry recently made attempts to capture and
report such costs on a by-province basis to the Ministry of Finance (MoF), doing so proved too difficult
because many projects affect multiple provinces and determining the extent to which a project
benefited one province versus another was too complicated. As a result, the government of Afghanistan
does not have a consolidated view of core provincial development fund executions.

The government of Afghanistan is, however, able to track core development funds that are expended by
Nangarhar’s provincial directorates. These funds are transferred from central ministries to provincial
directorates and expended. However, according to MoF data, total core development expenditures by
Nangarhar’s provincial institutions amounted to $2,366,074—4 percent of total core budget
expenditures—in solar year 1388. As seen in table I, the Ministry of Education executed most of this
funding (see appendix III for more detailed information on Nangarhar’s core development budget). 3




2
 While it may be possible for the Afghan Financial Management Information System to determine the amount of
money allocated to, and executed by, Nangarhar’s line directorates, this information would not capture
Nangarhar-based, centrally managed development projects.
3
 According to its director, Nangarhar’s Education Directorate makes development budget decisions based on
needs identified by local shuras—typically comprised of tribal leaders, head masters, elders, and teachers—who
make decisions about the use of allocated development funds on a school-by-school basis. Development funds are
allocated to shuras by formula based on the amount in the development budget and the number of students.
Typically, the shuras use these funds to purchase educational goods and equipment and make school repairs.
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                               Page 5
     Table 1: Nangarhar’s SY 1388 and SY 1389 (Partial Year) Core
     Development Budget Execution
                                                                           a
     Line Directorate                              1388              1389
     Finance                                  $146,791                 N/A
     Education                              $2,265,342             $64,815
     Public Health                              $78,775                N/A
     Justice                                     $9,931             $9,931
     National Olympic Committee                 $95,120                N/A
          b
     Total                                  $2,595,959             $74,746
     Amount Remitted to Central
               c                              $229,885                 N/A
      Treasury
     Total Development Budget
      Executed by Line                      $2,366,074             $74,746
      Directorates
     Source: SIGAR analysis of data provided by the MoF.
     Notes:
     a
       March 22 through June 13, 2010.
     b
       Figures may not equal the total due to currency conversions and
     rounding.
     c
       According to the MoF, funds may be remitted to the central treasury
     because project amounts are cut, projects come in under budget, or donor
     pledges are not kept.



The United States and Other Donors Fund Most of Nangarhar Province’s Development
Activities but Do Not Report Externally Funded Development Expenditures by Province

The United States and other donors funded most of Nangarhar’s development activities during this
period, with the United States funding more than any other donor. 4 U.S. development activities in
Nangarhar during fiscal year 2009 have an estimated value of more than $100 million and include the
following: 5

    •    The Commander’s Emergency Response Program (CERP) made $58,729,443 available for 202
         projects in Nangarhar. More than half of the funding was dedicated to transportation, with an
         additional 37 percent going for agriculture, rule of law and governance, and education (see
         appendix IV for more detailed information on CERP expenditures).
    •    USAID estimated that implementing partners made more than $42 million in development
         funding available for projects in Nangarhar, carried out through 37 program activities and 26

4
  Afghanistan’s development budget is divided into the core development budget, which is executed through the
government’s budget system, and the external development budget, which consists of expenditures by
international donor organizations that are not routed through the government’s budget or treasury system.
5
  Additionally, beginning in SY 1389, Nangarhar is entitled to receive up to $300,000 annually from the
Performance Based Governor's Fund. The Independent Directorate for Local Governance, an Afghan government
agency, coordinates the program, which is funded by multilateral donors and managed by The Asia Foundation
(see appendix VI for more information on the Performance Based Governor’s Fund). The total program cost is
$16.4 million, funded by the United States (83.9 percent), the United Kingdom (11.6 percent), and Belgium
(4.5 percent).

SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                Page 6
           implementing partners. Of this amount, 37 percent went for governance, 27 percent for roads
           and transportation, and 14 percent for economic growth (see appendix V for more detailed
           information on USAID expenditures).
      •    The Department of State estimated that it made more than $2.5 million in development grants
           available for projects in Nangarhar throughout fiscal year 2009 and, to date, in fiscal year 2010.
           Refugees and migration programs absorbed virtually all of the funding (see appendix VI for more
           detailed information on State Department expenditures).
      •    In 2008, the State Department’s Bureau of International Narcotics and Law Enforcement Affairs
           made $10,000,000 available to Nangarhar under its Good Performers Initiative for effectively
           decreasing poppy production to zero status. As of July 2010, $2,342,570 was expended through
           the core development budget for 41 micro-hydroelectric projects in 10 districts. 6 The Bureau of
           International Narcotics and Law Enforcement Affairs also awarded the governor’s office with
           $16,200—between fiscal years 2008 and 2010—under the Governor-Led Eradication Program.

UN agencies and other donors were also active in Nangarhar in fiscal year 2009. For example, UNAMA
reported that 6 UN agencies conducted 852 projects, as shown in table 2 (see appendix VII for
information on UN-Habitat activities in Nangarhar throughout fiscal year 2009). 7


       Table 2: UN Agencies with Projects in Nangarhar Province, FY 2009
                                                                         Projects in
       UN Agencies                                                       Nangarhar
                                                                           Province
       United Nations Human Settlements Program                                 689
       United Nations World Food Program                                         54
       United Nations Children's Fund                                            40
       Food and Agriculture Organization of the United Nations                   38
       Office of the United Nations High Commissioner for                        16
        Refugees
       UN Office on Drugs and Crime                                              15
       Total                                                                    852
       Source: SIGAR analysis of UNAMA data.

Major donors—including USAID and the UN—do not routinely collect or disseminate detailed provincial-
level data on development assistance execution for externally funded projects and programs. Almost all
of USAID’s 37 development projects and programs operating in Nangarhar are active in more than one
province, or throughout Afghanistan. USAID does not routinely require the 26 implementing partners
responsible for these projects and programs to report provincial-level expenditure data (see appendix V
for USAID projects and their implementing partners operating in Nangarhar). 8 Determining the amount
of USAID development funds expended in Nangarhar would require detailed data calls from each of

6
 Twenty-eight of these projects have been completed; the remainder are near completion. The remaining monies
have gone unspent because Nangarhar’s provincial government, the Ministry for Counter-Narcotics, and the State
Department have been unable to agree on appropriate projects to fund.
7
    UNAMA did not report the total amount of funds associated with these projects.
8
 Although USAID requires implementing partners to record estimated disbursements in USAID’s Afghan Info
database, these figures only represent an implementing partner’s “best guess” at actual expenditures. Only
summary data are provided to the government of Afghanistan. In addition, USAID’s financial management system
does not track implementing partner expenditure either by sub-contract or location.
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                Page 7
USAID’s implementing partners; even then, province-specific data may not be available. As a result, U.S.
officials working at the sub-national level do not have the information necessary to effectively monitor
and evaluate USAID programs.

Although UNAMA is responsible for promoting coherence and coordination of UN and international aid
and facilitating the alignment of donor activities to Afghan priorities, UNAMA officials in Nangarhar and
Kabul indicated that they are not able to obtain or report on donor funding or expenditure levels in
Nangarhar. For example, while UNAMA is aware of the project and program activities of various UN
organizations operating in Nangarhar, UNAMA is not routinely able to collect budget or expenditure
information pertaining to these organizations by province. UNAMA officials stated that UN organizations
do not divulge funding information to UNAMA or others because doing so could put them at a
competitive disadvantage with other aid organizations.


U.S. DEVELOPMENT PROJECTS AND PROGRAMS IN NANGARHAR ARE NOT TIED TO COHESIVE
PROVINCIAL DEVELOPMENT PRIORITIES AND ARE IMPLEMENTED WITHOUT GOVERNMENT
OF AFGHANISTAN INPUT

While U.S. government agencies have made some progress in aligning development projects and
programs with Nangarhar’s provincial priorities, U.S. projects and programs are currently implemented
without the benefit of provincially generated, government of Afghanistan-endorsed development
priorities. Moreover, according to SIGAR analysis and several senior U.S. officials responsible for multi-
million dollar development projects in Nangarhar, many U.S.-funded development projects in the
province are not being sustained by the Afghanistan government. Further complicating the national and
the Nangarhar provincial government’s ability to plan for and sustain development projects is the
inability of donors in Nangarhar to effectively coordinate their efforts.

Nangarhar Province Does Not Have a Functioning Development Planning Process or Provincial
Development Plan

According to USAID implementing partners, UNAMA, and senior U.S. officials in Nangarhar, the
Provincial Development Committee (PDC) and technical working group (TWG) process is not functioning
as intended. In July 2009, Nangarhar’s U.S. Provincial Reconstruction Team (PRT) began providing each
TWG with a quarterly CERP budget. 9 The provision of a budget, combined with intense mentorship and
tutelage of Nangarhar’s line directors, resulted in a substantial improvement in Nangarhar’s PDC and
TWGs. 10 Nevertheless, a primary role of TWGs—as determined by the Afghanistan government—is to
prepare, budget for, and monitor sectoral development plans. However, according to some UNAMA and
U.S. government officials, the PRT’s efforts resulted in line directors paying a disproportionate amount
of attention to other functions such as soliciting and selecting development projects. This turned the
TWGs into voting forums that simply approved the uncoordinated development projects proposed by
TWG members.

Moreover, UNAMA officials have expressed dissatisfaction with the direction and level of involvement of
U.S. officials in Nangarhar. According to these UNAMA officials, the heavy and unnecessary involvement
9
 The PRT provided each TWG with a budget, by allowing them to suggest projects up to a certain amount for
which the PRT would provide CERP funds, if all the conditions required for CERP funding were met. All contracting
and funding functions remained with the PRT, and no funds were allocated or contracting decisions delegated to
provincial officials.
10
  In June 2009, the Nangarhar provincial government did not have a functional PDC. The PDC and the six TWGs
responsible for supporting it did not hold regular meetings attended by members. However, as a result of the
PRT’s efforts, members began attending meetings and coordination improved.
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                   Page 8
of some U.S. officials in Nangarhar has negatively affected the workings of the TWGs and widened the
gap between the international community and Afghans. In contrast, senior U.S. officials in Nangarhar
maintain that the TWG and PDC members are far from ready to manage any of the development
process without substantial, ongoing mentorship, and that without substantial mentorship, the process
would disintegrate.

As the TWGs became project development and voting bodies, the task force (TF) and the PRT found that
the TWGs were primarily focused on developing and implementing projects in the provincial capital of
Jalalabad, rather than in more rural districts. 11 For example, the TWGs and the PDC were spending a
disproportionate amount of dedicated CERP funding to build government infrastructure in Jalalabad,
which resulted in the TF verbally requiring TWGs to allocate 75 percent of their CERP budgets to areas
outside of Jalalabad. 12 However, this guidance was never formally issued, and it is still unclear how this
directive is to be implemented. For example, during our visit to the Nangarhar PRT in June 2010, the PRT
did not know if the 75/25 split referred to cost or number of projects.

Nangarhar Province has a PDP; however, it is outdated, unused, and not implemented. In 2007,
Nangarhar held sub-national consultations to develop Nangarhar’s PDP and finalized it in March 2008.
PDPs were intended to be prioritized and fiscally sustainable development plans. However, the central
ministries viewed PDPs as not fiscally constrained, prioritized, or reflective of the will of the populace.
Moreover, the PDPs were not tied to any dedicated funding and were largely ignored by the national
and provincial governments, the U.S. government, and the international community. Most of the
projects in Nangarhar’s PDP were not implemented, and the PDP has never been updated. For example,
our analysis of the files associated with CERP projects in Nangarhar showed that none of the project files
we reviewed was for a project explicitly included in the PDP (even though project files for 14 of 26
projects indicated that the CERP project was included in Nangarhar’s PDP).

The Government of Afghanistan Does Not Have Visibility or Input into Many Externally
Funded and Implemented Development Projects and Programs

To construct the external development budget for Nangarhar, the MoF depends on reporting by donor
agencies that fund external projects, but the extent to which funding data are provided to the national
government or associated line directorates is varied and project dependent. The national and provincial
governments attempt to construct the external budget by piecing together estimated costs of projects
that they are made aware of by external donors. This process does not capture all projects or actual
costs, and the national and provincial governments must estimate—to the extent they can—the amount
of Nangarhar’s external budget. For example, the U.S. government, the largest development donor in
Nangarhar through the PRT and USAID, does not share financial information on externally financed
development projects with the national government or the provincial administration, according to
Nangarhar’s provincial arm of the Independent Directorate for Local Governance and Nangarhar’s
Governor’s Office. Moreover, neither U.S. Forces-Afghanistan (USFOR-A) Headquarters nor Task Force
(TF) level personnel responsible for CERP management are aware of any formal CERP expenditure
reporting to national or provincial authorities. The national or provincial governments may be aware of



11
  In much of Afghanistan, the North Atlantic Treaty Organization (NATO) manages reconstruction efforts through
combined military/civilian command posts. In Nangarhar, NATO operates three reconstruction and stabilization
teams—Provincial Reconstruction Team (PRT), Agribusiness Development Team (ADT), and Special Troop
Battalions (STB)—out of Camp Finley Shields in Jalalabad. Task Force Bastogne, also based in Nangarhar, oversees
PRTs, ADTs, and Special Troop Battalions in Nangarhar, Laghman, Kunar, and Nuristan Provinces.
12
 TF and PRT officials acknowledged that while it was necessary to build infrastructure in Jalalabad, the extent to
which TWG and PDC members focused on Jalalabad concerned them and led to the directive.
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                     Page 9
a given project, but the extent to which final project costs are divulged to either the national
government or associated line directorates varies on a project-by-project basis. 13

Nangarhar provincial officials attempt to obtain externally financed, development project information
from the PRT and USAID, or their contractors, for tax purposes, according to the Nangarhar’s Governor’s
Office and the provincial arm of the Independent Directorate for Local Governance. Afghan officials
further stated—and our work confirms—that the PRT and USAID do not provide this information.
Contractors often tell administration officials that USAID or the PRT prohibits them from disclosing
contract award amounts, but U.S. officials stated that the contractors purposefully evade government
contract information requests to avoid paying taxes. Without insight into contract costs, the provincial
government—on behalf of the Afghan government—is unable to levy taxes commensurate with
contractor revenues, thus denying the government legitimate revenue. Senior MoF officials in
Nangarhar would like the PRT and USAID to provide the Nangarhar mustofiats—the MoF’s provincial
directorates—copies of contracts to help mitigate fraud and tax evasion and help with tax revenue
collection. The PDC chair—the governor of Nangarhar—has officially requested this contract information
from the PRT and USAID. U.S. non-reporting of external development projects in Nangarhar has resulted
in the Afghan government having virtually no insight into U.S. government spending in Nangarhar. For
example, MoF data on U.S. external development spending in Nangarhar throughout 2009 only captures
2 projects, worth a total of $3.2 million, nearly $101 million less than the amount identified by SIGAR
over roughly that same period. 14

Additionally, USAID-funded projects do not go through the TWG/PDC process and are often
implemented without the knowledge or involvement of the national or provincial governments.
According to senior USAID and Department of State officials, while some USAID implementing partners
occasionally attend TWG meetings, no implementing partner has yet undertaken a project that has gone
through the full PDC process. Similarly, our analysis of the files associated with CERP projects executed
in Nangarhar revealed that, while 24 of 26 project files indicated that projects were coordinated with
the national government, only 4 showed any evidence that they were coordinated. 15 According to U.S.
officials in Nangarhar, previous U.S. development teams in Nangarhar—the PRT and Agribusiness
Development Team (ADT)—did not have a well thought out project selection strategy and often
conducted projects without consulting local officials. 16 These conditions culminate in an unclear picture
of the development funds expended in or benefiting Nangarhar and leave the government of
Afghanistan with little or no visibility into the amount of U.S. external development spending in
Nangarhar Province.



13
  Previous studies have found that support provided by the major donor agencies and international financial
institutions is largely captured by the government of Afghanistan’s external development budget (see
Intergovernmental Fiscal Relations and Sub-national Expenditures in Afghanistan, World Bank, August 2008).
However, we saw little evidence that the national government or provincial administration know how much
funding the United States is externally spending in Nangarhar.
14
  MoF data on U.S. external development spending in Nangarhar included funding executed by the U.S.
government for the Capacity Development Program and the Food Insecurity Response for Urban Populations.
Moreover, the $3.2 million captured funds executed in 5 provinces, so the amount executed in Nangarhar is likely
considerably less than the $3.2 million identified.
15
  CERP project files indicating that they were coordinated with the government of Afghanistan included a
“checked box” on one of the required documents. CERP project files that showed evidence of coordination
included documented evidence of coordination, such as sustainment agreements.
16
  In July 2009, PRT officials committed to vetting most CERP projects in Nangarhar through the PDC process;
however, the first PDC vote did not occur until January 2010. During that time, PRT officials focused on completing
previously initiated projects.
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                   Page 10
The ineffective coordination amongst the various donors operating in Nangarhar adds to the
government of Afghanistan’s lack of visibility into externally executed development projects. According
to PRT and TF officials, Nangarhar’s various donors, line directorates, and NGOs have their own
objectives and priorities, and coordination between the PRT and most of the NGOs operating in
Nangarhar is minimal. This lack of coordination has resulted in an environment in which donors, NGOs,
and provincial directorates may duplicate one another’s work. For example, one senior Afghan official
stated that while his directorate has a good relationship with the PRT and USAID, the number of donors
involved in the provision of public services results in the completion of projects that are uncoordinated
and unnecessary. TF officials stated that they began holding twice weekly meetings with the provincial
representative of UNAMA in spring 2010, in an effort to coordinate the efforts of the donors in the
region. However, these officials stated that getting donors and NGOs to attend such meetings has been
difficult because donors and NGOs have different objectives.

The Government of Afghanistan Is Not Sustaining Completed U.S. Development Projects in
Nangarhar Province

Afghans are severely limited in their ability to operate and maintain U.S.-completed development
projects in Nangarhar Province. Because no comprehensive inventory of provincial assets exists,
Nangarhar’s line directors are unable to provide anticipated operations and maintenance (O&M) budget
requirements to central ministries in Kabul. Further, the national and provincial directorates are unable
to identify the ordinary (recurrent) requirements of the budget because U.S. and donor-funded projects
may be completed without their knowledge. In some cases, even if a government official agrees to
sustain a CERP project upon completion, the official has not conducted the planning necessary to ensure
that funds will be available for sustainment.

According to senior TF officials, the government of Afghanistan did not operate or maintain many
previously completed CERP projects in Nangarhar, and many of these projects have become dilapidated
and are in disrepair. For example, the Nangarhar ADT has had to retrofit or repair many previously
completed and unmaintained CERP projects. Nevertheless, the United States does not prepare O&M
cost estimates for CERP projects and does not expect that the government of Afghanistan will sustain
most projects, according to TF, PRT, and ADT officials. In fact, senior PRT officials noted that they do
little more than “check the box” in CERP project files to indicate that the government of Afghanistan
agreed to fund sustainment. They do not generally document the Afghan government’s acceptance of
O&M in CERP project packages. Our analysis of Nangarhar’s CERP project files showed that 24 of 26
CERP files—of CERP projects completed by the PRT or ADT during fiscal years 2009 and 2010—did not
contain a U.S. and Afghan sustainment agreement or the signature of a government official accepting
responsibility for O&M, as CERP requires. 17

According to TF officials, beginning October 1, 2010, the TF, PRT, and ADT will no longer provide TWGs
with a quarterly budget. They will instead provide every provincial line director in the TF’s area of
responsibility—Nangarhar, Nuristan, Kunar, and Laghman—with a budget of $100,000 per quarter. 18 To

17
  Money as a Weapon System – Afghanistan, U.S. Forces, Afghanistan Publication 1-06, updated December 2009,
requires Commanders to include a Memorandum of Agreement for sustainment between USFOR-A and the
government of Afghanistan in CERP project files for projects greater than $50,000. Our sample contained 15
projects valued at over $50,000, with six valued at between $30,000 and $49,999.
18
  Beginning October 1, 2010, the TF/PRT/ADT/CERP will begin providing each District Development Assembly in
the TF’s area of responsibility with a budget of $75,000 per quarter. This money will not be cumulative and cannot
be used for any structures or projects that require quality control/quality assurance from engineers. Projects
requiring this must go through the provincial line directors, which helps ensure that efforts are coordinated
throughout the province and mitigates the effect of the Afghan and U.S. governments’ limited capacity for quality
assurance/quality control at the district-level. In cases where the PRT or TF provides Afghan entities with a
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                  Page 11
help the line directors establish development priorities and determine needs, they will be required to
inventory all the structures and facilities they are responsible for maintaining. Although the TF
acknowledges that the inventories developed by the directors will likely be quite poor, the TF believes
this exercise will provide a starting point for developing budget priorities. Under this new guidance,
directors will be required to consider and forecast O&M costs and compose a business plan outlining the
project and its sustainment needs when preparing projects for PRT consideration using CERP funds. 19
While the TF’s proposed direction may help develop the capacity of individual directors, additional
guidance and requirements could significantly delay already delayed project implementation. It is
unclear how this shift may affect the TWG/PDC process. Moreover, as of the date of this report, the TF
has not issued formal guidance regarding these directives.


NANGARHAR’S LINE DIRECTORATES LACK THE CAPACITY NECESSARY TO ABSORB
SIGNIFICANTLY MORE DEVELOPMENT FUNDING

Any control or influence Nangarhar has over public resources comes through its ability to shape the
national budget or through its influence over budget execution, to the extent that resources flow to the
provincial level. Nangarhar’s line directorates play a very limited role in development activities in
Nangarhar, and nearly all of the Afghan government’s core development activities are centralized in
Kabul at the ministry level. The level of centralization has left Nangarhar’s line directorates with little
capacity to absorb significantly more development funding.

Provincial Directorates Have a Limited Role in Formulating Budgets and Implementing
Development Projects

Although the government of Afghanistan’s Provincial Budget Handbook indicates that PDCs and
provincial directorates play a significant role in budget formulation, both the Department of the
Treasury and SIGAR have observed that provincial directorates are not involved in the budget process
and their input is not solicited. 20 Due to the centralization of development functions in Afghanistan, the
provincial line directorates are remitted only 17 percent of public funds even though they can be
considered the beneficiary of 61 percent of public expenditures. Nangarhar’s provincial directorates
have very little or no input into central ministries’ decisions regarding core budget allocations or tashkil
authorizations and have little control over the planning of provincially delivered services. In addition,
line directors’ operational budgets do not include sufficient funding for the goods and services required
to carry out their mission or to operate and maintain completed infrastructure projects.

Virtually all procurement functions are centralized at the ministerial level, and according to senior
Afghan government officials, Afghanistan’s procurement laws—and the concentration of procurement
skills in Kabul—ensure that most major procurement activities occur in the central government, not at
the provincial level. The government of Afghanistan’s procurement law provides that a minister is the
sole award authority for virtually all contracts, and that it is the minister’s discretion to delegate award
authority to deputy ministers or provincial line directors. 21 At present, none of the Nangarhar line
directors has any real procurement authority, and the central ministries enter into all procurement
contracts. The central ministries select contractors, submit contracts for bids, make contract awards,

“budget,” no funds are transferred and no contracting authorities are given to Afghan government entities; the TF
or PRT retains control over these functions.
19
  Any project proposed by a district development assembly for CERP funding must also include a memorandum
from the associated provincial line director asserting the directorate’s ability and willingness to sustain the project.
20
     A Handbook for Provincial Budgeting in Afghanistan, Islamic Republic of Afghanistan, 2008.
21
     The Government of Afghanistan’s Public Procurement Law, 1384, as amended.
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                       Page 12
and pay contractors from central funds. Engineers from the line directorates may assist in construction
oversight—usually with assistance from the Directorate for Urban Development—and pre-authorize
contract award payments; however, funding and award approvals are made at the ministry level. The
absence of procurement authority within Nangarhar’s provincial directorates means that central officials
manage procurements without adequate information and provincial officials are effectively
disenfranchised.

Limited Provincial Capacity and Centralization Challenge Efforts to Devolve Greater
Development Authorities

The international community and the government of Afghanistan agree that decentralization of
authority to the sub-national level is an appropriate way to improve governance. 22 For example, the
government of Afghanistan’s recently endorsed Sub-National Governance Policy (SNGP) calls for the
implementation of provincial plans to be delegated to the provincial directorates of the ministries. 23 To
realize this goal, the SNGP requires expenditure responsibilities related to provincial plans to be
delegated to provincial line directorates, with the provincial directorates accountable for the use of
funds to the parent ministries, the provincial governors, and the provincial councils. Although the
communiqué from the Kabul Conference called for the SNGP to be implemented within a year, the
capacity for managing this new process in Nangarhar does not exist. We have seen no evidence that
Nangarhar’s provincial directorates are ready or capable of taking on additional development
responsibilities. For example, one provincial line director stated that, even if the ministry provided the
directorate with development funding, he would not know what to do with the funds because his office
currently does not have the capacity to implement and manage projects. Nangarhar’s line directorates
have never had such a role and lack the capacity to fulfill SNGP’s mandate in the prescribed timeframe.
According to senior UNAMA officials, the timelines for SNGP implementation—and decentralization—
are irrelevant, and the government is not likely to meet these self-imposed dates. The SNGP notes that
many of its goals are “aspirational.”

In recent years, the government of Afghanistan has implemented provincial budgeting pilots in many
provinces and ministries—including several directorates with whom SIGAR spoke in Nangarhar—in an
effort to involve provincial directorates in the budgeting process. 24 Despite these ongoing efforts, and
recent recommitments to provincial inclusion in the budget process, provincial directorates in
Nangarhar stated that they were removed from the budget process and the pilot efforts have not
resolved the central ministries’ inequitable allocation of resources across provinces. 25

Central ministries have difficulty arriving at a rational provincial allocation of resources, and there is
evidence that central allocation processes do not connect with provincial needs. For example, the
government of Afghanistan’s solar year 1389 budget allocated $349 million to five provinces—Balkh,
Kandahar, Kunduz, Badakhshan, and Kabul—while the remaining 29 provinces—including Nangarhar—
were allocated $369 million. The inability of the central government to allocate resources equitably
across provinces limits the government’s ability to deliver adequate public services. Provincial officials

22
  Historically, in Afghanistan, both the government and citizenry have considerable desire for strong
centralization, in part because of historical legacies and fear of fragmentation, and in part because conflict did not
destroy centralized state structures.
23
     Sub-National Governance Policy, Spring 2010.
24
  A Handbook for Provincial Budgeting in Afghanistan, Islamic Republic of Afghanistan, Ministry of Finance, 2008.
Sub-National Governance Policy, Spring 2010.
25
   Due to the low capacity of the provincial directorates and the PDCs, many of the budgets produced in the
provinces needed extensive revision and work before submission to the MoF. Hence, the participating ministries
still control the budgeting process.
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                      Page 13
we spoke with stated that they have no control or input into the directorate’s budget and lack the staff
and expertise required to deliver public services effectively.

According to senior officials at most of the directorates and ministries we interviewed, there is poor
communication between the central ministries and provincial directorates. Poor communication
between central ministries and provincial directorates further indicate the unlikelihood of meaningful
devolution of development authorities. According to senior MoF officials, as the government of
Afghanistan enters into a performance management culture, ministers that are held accountable for
procurement and budget execution will have greater incentives to retain procurement operations in
Kabul, rather than devolve authority to the provinces.

Several of Nangarhar’s Line Directorates Are Allocated a Core Development Budget, but Few
Ministries Execute Any of the Associated Funds

Influencing budget execution is one of the primary mechanisms through which Nangarhar’s provincial
directorates may exert control over public resources, to the extent that resources flow through the
provincial level. Although each directorate in Nangarhar executes a core operating budget, very few
directorates are able to execute a core development budget. While 2 directorates were able to execute
approximately $75,000 in development budget expenditures, this represents five percent of total
development budget allocations in solar year 1389. 26 The national development budget execution rates
are low in most ministries; a significant number of central ministries have less than 30 to 40 percent
execution rates. However, in Nangarhar Province, execution of the development budget is even lower,
demonstrating the low capacity, the need for further capacity building, and improvements in both
budget preparation and execution processes (see table 3 for a summary of Nangarhar line directorates’
solar year 1389 core development budget execution). 27




26
     This is based on partial year data on funds allocated and executed between March 21 and June 13, 2010.
27
  Some reasons for low development budget execution include a provincial directorate’s failure to meet all of the
funding conditions associated with a particular development budget activity (that is, the provincial directorate
would have to meet all the planning and accountability requirements associated with the funds), central ministries
not releasing allocated funds to the directorate, and donors not providing committed funds.
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                      Page 14
     Table 3: Core Development Budget Funds Executed by Line Directorates in
     Nangarhar Province, SY 1389 (March – June 2010)
     Ministry Directorate           Budgeted Funds         Executed Funds   Execution Rate
     Ministry of Energy                     $326,198                  $0               0%
     and Water
     Ministry of Public                     $287,065                  $0               0%
     Works
     Ministry of Commerce                   $240,965                  $0               0%
     Ministry of Education                  $146,080             $64,815              44%
     Ministry of                            $135,233                  $0               0%
     Agriculture
     Ministry of Rural                      $131,801                  $0               0%
     Rehabilitation and
     Development
     Ministry of Finance                     $58,920                  $0               0%
     Ministry of Higher                      $37,851                  $0               0%
     Education
     National Olympic                        $34,021                  $0               0%
     Committee
     Ministry of Economy                     $22,989                  $0               0%
     Afghanistan National                    $16,121                  $0               0%
     Standard Authority
     Ministry of Haj and                     $12,138                  $0               0%
     Religious Affairs
     Ministry of Refugees                     $8,300                  $0               0%
     and Repatriates
     Ministry of Public                       $7,110                  $0               0%
     Health
     Independent                              $4,287                  $0               0%
     Directorate of Local
     Governance
     Election Commission                      $2,299                  $0               0%
     Attorney General                           $690                  $0               0%
     Ministry of Martyrs,                       $284                  $0               0%
     Disabled and Social
     Affairs
     Ministry of Justice                           $0             $9,931         Unknown
     Total                               $1,472,350              $74,746               5%
     Source: SIGAR analysis of data provided by the MoF.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                     Page 15
CONCLUSION

To a large extent, the Afghan government funds only salaries for education and security in
Nangarhar. To manage a significant increase in development funds, the Nangarhar provincial
government and administration requires improved budget input and visibility, project prioritization and
sectoral planning capacity, and closer interaction and insight into externally funded development
projects. Nangarhar’s provincial officials cannot manage or maintain what they cannot see, and most of
the externally funded U.S. and international development activities we identified in Nangarhar are
implemented without the input or visibility of provincial officials. Good development projects can result
in waste if they are not properly maintained, and Nangarhar’s provincial government and administration
are severely limited in their ability to sustain U.S.-funded development projects. Development partners,
especially U.S. military officials implementing CERP projects and USAID project implementers, need to
work with Afghan partners in Nangarhar province to ensure that schools, irrigation systems, roads and
other infrastructure projects are sustained and provide the essential services for which they were built.
The lack of sectoral development planning in Nangarhar—on the part of the U.S. and Afghan
government—has resulted in an incoherent approach to development because accomplishments cannot
be measured against needs identified in a plan, and ultimately impeded capacity development within
the provincial government. The international community needs to help reorient Nangarhar’s provincial
government—especially the PDC and TWGs—to focus on producing cohesive sectoral strategies and
development plans, rather than focus on preparing project proposals for individual donors such as the
U.S. PRT.


RECOMMENDATIONS

To help prevent waste in the implementation of U.S. development projects in Nangarhar, and to
strengthen the capacity of Nangarhar’s provincial administration to manage development funds,
strategically prioritize needs, and sustain completed projects, SIGAR is making the following five
recommendations.

To help ensure that Nangarhar’s provincial directorates develop the capacity required to implement,
absorb, and execute additional development funds and implement development projects—as outlined
in the government of Afghanistan’s Sub-National Governance Policy—SIGAR recommends that the U.S.
Ambassador to Afghanistan, in coordination with the Nangarhar PRT and USFOR-A:

    1. Work with the MoF and other ministries to develop a cohesive, interagency strategy focused on
       developing Nangarhar Province’s capacity in budget formulation and execution, planning and
       project development, management and oversight, and operations and maintenance.
To ensure that the government of Afghanistan and U.S. personnel are aware of provincial-level U.S.
development activities, priorities, and expenditures across Afghanistan, and to ensure that the
Afghanistan government is able to develop an accurate picture of provincial-level expenditures for
inclusion in the external budget, SIGAR recommends that the U.S. Ambassador to Afghanistan, in
coordination with USFOR-A and the Afghan government:

    2. Develop a strategy and methodology to formally report provincial-level project and expenditure
        data—at the appropriate level of detail—to the government of Afghanistan and provincially
        based Afghan and U.S. officials; this may require provincial-level expenditure reporting from
        implementing partners.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                             Page 16
To ensure U.S. development funds executed in Nangarhar are used in accordance with cohesive,
government of Afghanistan sanctioned, provincial development priorities, SIGAR recommends that the
U.S. Ambassador to Afghanistan:

    3. Coordinate with USFOR-A, UNAMA, and other stakeholders to assist Nangarhar’s line directors
       and technical working groups in developing meaningful, comprehensive sectoral development
       plans that can lead to sustainable economic improvement.
    4. Advance and implement a development assistance plan for Nangarhar in a manner that
       increasingly transfers development management to the provincial government institutions,
       including line ministers, and the technical working groups/Provincial Development Committee
       process. This includes encouraging and/or requiring implementing partners to formally involve
       provincial officials in development projects and programs.
To ensure that completed CERP projects are sustained by the government of Afghanistan, and therefore
benefit the long-term development of Afghanistan, SIGAR recommends that USFOR-A:

    5. Improve CERP procedures for documenting the Afghan government’s acceptance of
       responsibility for sustainment of completed construction, to include (1) the name and
       position/level of the Afghan government officials authorized to accept sustainment for projects
       at various costs; (2) sustainment plans that identify operations and maintenance costs for the
       projected lifetime of CERP projects; and (3) ensuring that project file documentation includes
       sustainment agreements, as currently required.


COMMENTS

USFOR-A and U.S. Embassy Kabul provided official comments on a draft of this report. The comments
are included in appendices VIII and IX, respectively. In its comments, USFOR-A concurred with our
recommendation to help ensure that completed CERP projects are sustained by the government of
Afghanistan and benefit Afghanistan’s long-term development and outlined steps it would take to
address the recommendation. U.S. Embassy Kabul indicated general concurrence with the report’s
recommendations but expressed some concerns regarding two of the recommendations. The comments
did not outline specific steps that U.S. Embassy Kabul planned to take to address any of the
recommendations.

U.S. Embassy Kabul generally concurred with the recommendation to help ensure that Nangarhar’s
provincial directorates develop the capacity required to implement, absorb, and execute additional
development funds and implement development projects—provided that this is done in close
coordination with central ministries in Kabul, particularly the MoF. Based the Embassy’s response,
SIGAR has included language in the recommendation to indicate the MoF’s and other ministries’ key role
in such efforts. The Embassy also outlined some recent provincial capacity development initiatives.
While we commend the initiatives to improve Nangarhar Province’s capacity in this regard, these efforts
are in the early stages of implementation. The primary effort identified by USAID—USAID’s Economic
Growth and Governance Initiative—began its activities in Nangarhar on September 20, 2010, the day
SIGAR sent a draft of this report for comment. Moreover, it is unclear whether these initiatives include
all relevant stakeholders, such as the U.S. Department of the Treasury, which is critical to avoid
duplication of effort and maximize efficiency and effectiveness.

U.S. Embassy Kabul also generally concurred with our recommendation to ensure that government of
Afghanistan and U.S. personnel are aware of provincial-level U.S. development activities, priorities, and
expenditures across Afghanistan, and to ensure that the Afghan government is able to develop an
accurate picture of provincial-level expenditures for inclusion in the external budget. The Embassy
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                          Page 17
expressed concern, however, about the complexity and potential misunderstandings created by the
provision of these data. To address these concerns, SIGAR revised the language in the recommendation
to indicate that only necessary and appropriate information—such as project or program expenditures,
goals, and outcomes rather than salary information—need be reported. Despite the potential challenges
that obtaining and disseminating this information may present, SIGAR maintains that this information is
critical to the ability of U.S. officials working at the sub-national level to effectively monitor and evaluate
programs and to the government of Afghanistan to maintain an accurate picture of provincial
expenditures for inclusion in the external budget.

In addition, the U.S. Embassy stated that there needs to be a more comprehensive absorptive capacity
assessment conducted. Although the scope of our audit did not include such an assessment, based on
the results outlined in this report we agree that it would be appropriate for the U.S. government to
undertake such an assessment prior to channeling more funds through the provincial governments of
Afghanistan.

U.S. Embassy Kabul and the U.S. Department of the Treasury also provided technical comments that
SIGAR incorporated in this report as appropriate.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                               Page 18
APPENDIX I: SCOPE AND METHODOLOGY

This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of U.S. development funding in Nangarhar Province.

To identify the amount and type of government of Afghanistan, U.S. government, and other donor
development funding expended in Nangarhar Province, we obtained and analyzed budget and
expenditure data from the Ministry of Finance, Nangarhar’s mustofiat, the U.S. Departments of Defense,
State, Agriculture, and the Treasury, and the U.S. Agency for International Development (USAID).
Included in our data analysis were government of Afghanistan budget documents, such as
documentation from the official budget, the Afghan Management Information System, and the
Development Assistance Database Afghanistan, U.S. Forces-Afghanistan information on the
Commanders’ Emergency Response Program (CERP) extrapolated from the Combined Information Data
Network Exchange, and State and USAID expenditure data. We supplemented these data by conducting
interviews with responsible officials at each of these entities to form a complete picture of development
funding in Nangarhar. In reporting Afghan budget data in this report, all conversions from Afghanis to
U.S. dollars are based on the currency conversion rate of 0.0229885 (Afghani to Dollar).

To assess the degree to which U.S. projects are aligned with Nangarhar’s development priorities, we
used information obtained through the documents and interviews described above, observed meetings
of Nangarhar’s Provincial Development Committee and technical working groups, and conducted
additional interviews with a USAID implementing partner, and Afghan government officials, including
leadership at the Ministry of Finance, the Control and Audit Office, Nangarhar’s provincial directorates
of Education, Urban Development, Agriculture, Public Health, Rural Rehabilitation and Development, the
Independent Directorate for Local Governance, the Mustofiat, and the Governor’s Office. Further, we
conducted qualitative analyses of a judgmental sample of CERP project files and obtained information
from the contracting or agreement officers responsible for projects or programs in Nangarhar to
determine the extent to which files demonstrated that projects were coordinated with the Afghan
government and included in Nangarhar’s Provincial Development Plan.

To determine the extent to which Nangarhar’s provincial administration is prepared to absorb and
execute additional development funds, we used information obtained through the documents and
interviews described above and developed conclusions based on that evidence. After identifying the
current capacity of Nangarhar’s provincial administration to absorb and execute additional development
funds, we compared those findings with criteria for provincial capacity as described in various Afghan
government documents.

During the planning stage of the review, we considered whether the use of internal controls, compliance
with laws, regulations, or provisions of contracts and grant agreements, and fraud risk were significant
to the audit objectives. We determined that none of these elements were significant. We used
computer-processed data from United States and Afghan government sources to determine budgetary
information. Except where noted in the report, we determined the data to be reliable for the purposes
of identifying the amount and type of funds expended in Afghanistan and Nangarhar Province.

This report is part of a series of SIGAR audits addressing U.S. efforts to combat corruption and
strengthen governance. We conducted work in Kabul and Nangarhar, Afghanistan, from May to
September 2010 in accordance with generally accepted government auditing standards. These
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe
the evidence obtained provides a reasonable basis for our findings and conclusions based on our audit


SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                           Page 19
objectives. The audit was conducted by SIGAR under the authority of Public Law No. 110-181, and the
Inspector General Act of 1978, as amended.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                      Page 20
APPENDIX II: GOVERNMENT OF AFGHANISTAN CORE BUDGET INFORMATION

The government of Afghanistan’s total budget consists of a core operating budget and a development
budget. The operating budget is structured by primary budget organization (e.g., ministry, department,
or government agency) and budget code (e.g., wages and salaries, goods and services, and acquisition of
assets). Figures I and II show the allocation of the Afghan government’s 1388 budget by code and
economic classification, respectively.


     Figure I: Government of Afghanistan’s SY 1388 Budget, by Budget Code




                          19%
                                                               Wages and Salaries
             2%
                                                               Goods and Services


                                                               Acquisition of Assets
                                                  60%
                  19%
                                                               Contingency Fund for
                                                               Ministry of Defence




     Source: SIGAR analysis of Ministry of Finance data.
     Note: Total does not equal 100 percent due to rounding.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                       Page 21
     Figure II: Government of Afghanistan’s SY 1388 Recurring Operating Budget, by
     Economic Categories



                               9%                                       Security
                      7%
                                                                        Non-Economic Codes

                                                 42%
                                                                        Education
                18%

                                                                        Governance, Rule of Law
                                                                        and Human Rights
                                                                        Other Economic
                               24%
                                                                        Categories




     Source: SIGAR analysis of Ministry of Finance data.

     Notes: Non-economic codes include items such as salary supplements, fuel subsidies, pensions, and
     emergency funds. Other economic categories include health, infrastructure and natural resources, social
     protection, economic governance and private sector development, and agriculture and rural
     development.

     Total does not equal 100 percent due to rounding.

The development budget is divided into the core development budget, which is executed through the
government’s budget system, and the external development budget, which consists of expenditures by
international donor organizations that are not routed through the government’s budget or treasury
system. The core development budget is presented at the project level, sorted by ministry, and
separated into approved budget (projects for which the budget resources are available) and approved
projects (projects that are conditionally approved upon funding made available from external sources). 28

In addition to funding the entire external development budget, donor grants, whether from individual
donor countries or multilateral agencies, support a large portion of the operating budget and fund
nearly the entire core development budget.29 Three sources of donor grants support the core operating
budget:

     •   The Afghanistan Reconstruction Trust Fund (ARTF)—through its recurrent cost window—
         supports the overall operations of Afghanistan’s government;
     •   The Law and Order Trust Fund for Afghanistan supports the Afghan National Police; and
     •   The Afghan Security Forces Fund—through the Combined Security Transition Command-
         Afghanistan—supports the Afghan National Army and other security expenditures.

28
  The core development budget is almost fully funded by donor contributions and consists of discretionary
spending, which is allocated to the government of Afghanistan when certain performance indicators are achieved,
and nondiscretionary spending, which is provided to fund specific development projects and programs.
29
  The government of Afghanistan’s solar year 1388 core development budget was $903 million, plus carry-over
funds estimated between $700 million and $1 billion. The largest donors were ARTF ($302 million); World Bank
($287.9 million); and the Asian Development Bank ($134.4 million).
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                       Page 22
Of these three assistance sources, only ARTF supports operations and development outside the security
sector. ARTF is a partnership between the international community and the Afghan government to
support the improved effectiveness of the reconstruction effort. Since 2002, 30 donors have contributed
more than $3 billion to ARTF, making it the largest contributor to the Afghan budget—for both
operating costs and development programs. 30 ARTF’s management committee consists of the World
Bank (as the administrator), the Islamic Development Bank, the Asian Development Bank, and the UN
(United Nations Assistance Mission in Afghanistan and UN Development Program). 31

ARTF allocates funding through its recurrent cost window, which reimburses the government of
Afghanistan for a certain portion of eligible and non-security related operating expenditures every year,
or its investment window, which provides grant financing for national development programs in the
development budget. 32 The recurrent cost window still finances around half of the government’s non-
security costs. The investment window has increased significantly in volume and scope over the last two
years due to increased levels of donor contributions, particularly from the United States. The
“preferenced” portion of donor contributions has been the main factor driving growth in the ARTF over
the past few years. 33 To ensure that ARTF has sufficient funding to finance the recurrent cost window,
donors may not preference more than half of their annual contributions.

The following tables contain summary information related to the government of Afghanistan’s 1388
core budget, including total core budget information (see table I), operating budget allocation by budget
code (see table II), operating budget by economic category (see table III), and a breakdown of the
development budget by sector (see table IV).


        Table I: Government of Afghanistan Total Operating and Development Budget,
        SY 1388
        Government of Afghanistan National Budget,                                 Percentage of
                                                                    U.S. Dollars
        SY 1388                                                                     Core Budget
        Core Budget                                            $3,517,507,856             100%
        Operating Budget                                       $2,159,851,644               61%
        Development Budget                                     $1,357,654,833               39%
        Source: SIGAR analysis of government of Afghanistan data.




30
     Approximately 15 donors contribute every year.
31
 ARTF donors meet quarterly to discuss broader strategy with the government and ARTF management.
32
  Domestic revenues continue to be insufficient to cover the costs of government. The ARTF recurrent cost
window has therefore ensured the basic functioning of government.
33
  Preferences are a formal recognition by the fund administrator of the donor’s preference to allocate a certain
portion of a contribution toward a particular project.
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                   Page 23
     Table II: Government of Afghanistan Operating Budget by Code,
     SY 1388
                                                                 Percentage of
     Budget Code                               U.S. Dollars
                                                                         Total
     Wages and Salaries                    $1,304,884,294                 60%
     Goods and Services                      $410,677,346                 19%
     Acquisition of Assets                     $38,873,691                 2%
     Other Codes                             $405,416,243                 19%
     Total                                 $2,159,851,575               100%
     Source: SIGAR analysis of government of Afghanistan data.




     Table III: Government of Afghanistan Operating Budget by Economic Category, SY 1388
                                                                                                 Percentage
     Economic Category                                                            U.S. Dollars
                                                                                                    of Total
     Security                                                                    $914,859,562          42%
     Other Codes                                                                 $513,794,377          24%
     Education                                                                   $383,295,072          18%
     Governance, Rule of Law and Human Rights                                    $157,640,153            7%
     Health                                                                       $42,446,610            2%
     Infrastructure & Natural Resources                                           $42,072,288            2%
     Social Protection                                                            $38,005,088            2%
     Economic Governance and Private Sector Development                           $35,337,127            2%
     Agriculture and Rural Development                                            $32,401,297            2%
     Source: SIGAR analysis of government of MoF data.

     Note: The total percentage does not equal 100% due to rounding.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                   Page 24
     Table IV: Government of Afghanistan Core Development Budget by Sector,
     SY 1388
     Sector                                                              Total Budget Allocation
     Infrastructure & Natural Resources                                          $1,016,229,631
     Agriculture & Rural Development                                              $640,229,725
     Education                                                                    $329,425,205
     Health                                                                       $235,402,240
     Economic Governance and Private Sector Development                           $221,494,198
     Good Governance, Rule of Law and Human Rights                                  $60,942,514
     Unclassified                                                                   $59,770,100
     Social Protection                                                              $35,885,049
     Security                                                                       $11,494,250
     Total                                                                       $2,610,872,911
     Source: SIGAR analysis of government of MoF data.
     Note: Actual development budget expenditures were $1,357,654,833.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                           Page 25
APPENDIX III: NANGARHAR PROVINCE CORE BUDGET INFORMATION

Appendix III contains summary information related to Nangarhar Province’s 1388 core budget, including
operating budget allocation by budget code (see table V), operating budget by government department
(see table VI), and consolidated operating (by budget code) and development budget (by ministry) (see
table VII).


     Table V: Nangarhar Province Operating Budget by Budget
     Code, SY 1388
     Budget Code                                U.S. Dollars     Percentage
                                                                    of Total
     Wages and Salaries (21)                   $51,317,713             85%
     Use of Goods and Services (22)             $6,543,791             11%
     Subsidies, Grants & Social                 $2,771,988               5%
     Expenditures (24)
     Acquisition of Assets (25)                     $68,392              0%
     Grand Total                               $60,701,884
     Source: SIGAR analysis of Afghan government data.

     Note: The total percentage does not equal 100% due to rounding.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                      Page 26
     Table VI: Allocation of Nangarhar Province Operating Budget by Government Department,
     SY 1388
                                                                              Percentage of
                                                                                      Total
     Government Department                                     U.S. Dollars
                                                                                 Operating
                                                                                    Budget
     Ministry of Interior                                      $23,171,848           38.2%
     Ministry of Education                                     $20,300,296           33.4%
     Ministry of Higher Education                               $4,432,017            7.3%
     Ministry of Martyrs, Disabled and Social Affairs           $2,696,658            4.4%
     Ministry of Agriculture                                    $2,350,256            3.9%
     Independent Directorate of Local Governance                $1,364,320            2.2%
     Ministry of Justice                                        $1,341,814            2.2%
     Ministry of Finance                                        $1,192,226            2.0%
     Ministry of Public Health                                   $792,102             1.3%
     Supreme Court                                               $533,201             0.9%
     Attorney General                                            $308,096             0.5%
     Ministry of Haj and Religious Affairs                       $237,000             0.4%
     Ministry of Communication                                   $236,238             0.4%
     Ministry of Rural Rehabilitation and Development            $215,217             0.4%
     Ministry of Information and Culture                         $203,517             0.3%
     Ministry of Public Works                                    $150,039             0.2%
     Ministry of Defense                                         $143,360             0.2%
     Ministry of Energy and Water                                $116,976             0.2%
     Ministry of Urban Development                                $97,171             0.2%
     Geodesy and Cartography Office                               $96,718             0.2%
     Ministry of Frontiers and Tribal Affairs                     $84,715             0.1%
     Ministry of Transport and Aviation                           $69,081             0.1%
     IARCSC (Civil Service)                                       $68,119             0.1%
     Ministry of Refugees and Repatriates                         $66,601             0.1%
     Ministry of Foreign Affairs                                  $62,933             0.1%
     Directorate of Environment                                   $59,274             0.1%
     Ministry of Women Affairs                                    $49,251             0.1%
     Ministry of Economy                                          $47,062             0.1%
     Ministry of Commerce and Industry                            $45,103             0.1%
     National Olympic Committee                                   $39,188             0.1%
     Office of Disaster Preparedness                              $34,638             0.1%
     Central Statistics Office                                    $32,359             0.1%




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                      Page 27
                                                                                       Percentage of
                                                                                               Total
     Government Department                                              U.S. Dollars
                                                                                          Operating
                                                                                             Budget
     Ministry of Counter Narcotics                                         $32,065             0.1%
     Election Commission                                                   $18,288               0%
     Directorate of Kochis                                                 $14,138               0%
     Total                                                              $60,701,884           100%
     Source: SIGAR analysis of Afghan government data.




     Table VII: Nangarhar Province Consolidated Operating
     (by Budget Code) and Development Budget (by
     Ministry), SY 1388
     Operating Budget                                    U.S. Dollars
     Wages and Salaries                                  $51,317,713
     Use of Goods and services                            $6,543,791
     Subsidies, Grants & Social Expenditures              $2,771,988
     Acquisition of Assets                                  $68,392
     Subtotal                                            $60,701,884


     Development Budget
     Ministry of Health                                   $2,265,342
     Ministry of Finance                                   $146,791
     National Olympic Committee                             $95,120
     Ministry of Public Health                              $78,775
     Ministry of Justice                                      $9,931
     Returned Funds                                        -$229,885
     Subtotal                                             $2,366,074


     Total Budget                                        $63,067,958
     Operating Budget Percentage of Total                       96%
     Source: SIGAR analysis of Afghan government data.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                               Page 28
APPENDIX IV: CERP BUDGET INFORMATION IN NANGARHAR PROVINCE

Appendix IV contains summary information related to CERP expenditure in Nangarhar province,
including fiscal year 2009 and 2010 (October 1, 2008 to March 31, 2010) CERP obligations delineated by
project category (see table VIII).


     Table VIII: Total Obligations by CERP in Nangarhar Province by Project
     Category, October 1, 2008 to March 31, 2010
                                                                         Percentage
     Project Category                                      Obligations
                                                                            of Total
     Transportation                                        $32,033,283         55%
     Agriculture                                           $10,445,165         18%
     Rule of Law and Governance                             $5,758,294         10%
     Education                                              $5,022,779           9%
     Water and Sanitation                                   $1,895,660           3%
     Healthcare                                              $903,543            2%
     Repair of Civic and Cultural Facilities                 $744,753            1%
     Other Urgent Humanitarian and Reconstruction            $599,530            1%
     Projects
     Food Production and Distribution                        $488,348            1%
     Electricity                                             $284,351            0%
     Protective Measures                                     $259,715            0%
     Economic, Financial, and Management Improvements        $150,864            0%
     Condolence Payments                                     $139,118            0%
     Battle Damage Repair                                      $4,039            0%
     Total                                                 $58,729,443
     Source: SIGAR analysis of CERP data.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                       Page 29
APPENDIX V: USAID BUDGET INFORMATION IN NANGARHAR PROVINCE

Appendix V contains summary information related to USAID estimated development expenditures in
Nangarhar Province, including total estimated fiscal year 2009 disbursements delineated by primary
sector (see table IX and figure III) and implementing partners responsible for various USAID projects or
programs in Nangarhar and the primary sector of those projects or programs (see table X).


     Table IX: Estimated USAID Disbursements
     and Percentages in Nangarhar Province by
     Primary Sector, FY 2009
                                             Est. FY 2009
     Primary Sector
                                          Disbursements
     Governance                              $15,597,245
     Roads and Transportation                $11,632,178
     Economic Growth                           $6,072,846
     Basic Education                           $3,650,895
     Agriculture                               $3,081,652
     Civilian Assistance/Solatia                 $991,329
     All Other Sectors                         $1,381,996
     Total                                   $42,408,141
     Source: SIGAR analysis of USAID data.




     Figure III: Estimated USAID Disbursements Percentages in Nangarhar Province
     by Primary Sector, FY 2009

                            2% 3%
                                                                        Governance
                           7%
                                                                        Roads and Transportation
                      9%                       37%                      Economic Growth
                                                                        Basic Education
                    14%
                                                                        Agriculture
                                                                        Civilian Assistance/Solatia

                                   27%                                  All Other Sectors



     Source: SIGAR analysis of USAID data.
     Note: Solatia are the payments or other recompense for mental suffering or financial or other loss.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                   Page 30
     Table X: USAID Implementing Partners in Nangarhar Province by Number of Projects and Sector,
     Fiscal Years 2009 and 2010 (Partial Year)
                                        Number
     USAID Implementing Partners              of   Mechanism Title                      Sectors
                                        Projects
     (ARD) Associates in Rural                1    The Afghan Sustainable Water         Potable Water &
     Development                                   Supply and Sanitation (SWSS)         Sanitation
                                                   Project
     Academy For Educational                  2    (1) Agriculture, Rural Investment    Economic Growth;
     Development                                   and Enterprise Strengthening         Higher Education
                                                   Program (ARIES) (2) Higher
                                                   Education Program / HEP
     Asia Foundation, The                     2    (1) Financial Management             Basic Education;
                                                   Services for the American            Women
                                                   University of Afghanistan (2)
                                                   Ministry of Women Affairs'
                                                   Strengthening Policy and
                                                   Advocacy (MISPA)
     CAII-Creative Associates                 1    Building Education Support           Basic Education
     International, Inc.                           System for Teachers (BESST)
     CARE                                     1    Partnership for Advancing            Basic Education
                                                   Community Education in
                                                   Afghanistan (PACE-A)
     Central Asia Development                 1    Support for Food insecurity          Economic Growth
     Group, Inc. (CADG)                            Response for urban population
                                                   (PRT-FIRUP)
     CEPPS - Consortium for Elections         1    To support increased Electoral       Elections
     and Political Process                         Participation in Afghanistan with
     Strengthening                                 Consortium for Elections and
                                                   Political Process Strengthening
                                                   (CEPPS
     CI-Chemonics International               1    Accelerating Sustainable             Agriculture
                                                   Agriculture Program (ASAP)
     Counterpart International Inc            1    Initiative to Promote Afghan Civil   Civil Society
                                                   Society (I-PACS)
     Deloitte Consulting LLP                  3    (1) Economic Growth and              Economic Growth (2);
                                                   Governance Initiative (EGGI) (2)     Governance
                                                   Economic Growth and
                                                   Governance Initiative (EGGI) (3)
                                                   Afghan Civil Service Support
                                                   (ACSS)




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                  Page 31
                                        Number
     USAID Implementing Partners              of   Mechanism Title                      Sectors
                                        Projects
     Development Alternatives, Inc.           4    (1) Incentive Driving Economic       Economic Growth (2);
                                                   Alternatives Northeast and West      Governance;
                                                   (IDEA- NEW) (2) Afghanistan Small    Agriculture
                                                   and Medium Enterprise
                                                   Development Program (ASMED)
                                                   (3) Afghanistan Stabilization
                                                   Initiative (ASI) (4) Local
                                                   Governance and Community
                                                   Development (LGCD) Project
     Futures Group International, LLC         1    Expanding Access to Private          Health
                                                   Sector Health Products and
                                                   Services
     IFES, Inc.                               1    Elections and Political Processes    Elections
     International City/County                2    (1) Afghanistan Municipal            Governance; Potable
     Management Association Inc                    Strengthening Program (2)            Water & Sanitation
                                                   Commercialization of Afghanistan
                                                   Water & Sanitation Activity
                                                   (CAWSA)
     International Organization for           2    (1) Construction of Health and       Agriculture; Civilian
     Migration                                     Education Facilities (CHEF) (2)      Assistance/Solatia*
                                                   Civilian Assistance Program - Inc.
                                                   Fund funding to Afghan Civilian
                                                   Assistance Program (ACAP) /
                                                   Leahy Initiative
     International Relief and                 2    (1) Human Resources and Logistic     Roads and
     Development, Inc.                             Support (2) Strategic Provincial     Transportation
                                                   Roads-South and East Afghanistan
     Internews Network                        1    Independent Media in                 Media/Communications
                                                   Afghanistan
     JHPIEGO Corporation                      1    Health Service Support Project       Health
                                                   (HSSP)
     Louis Berger Group Inc., The             2    (1) Afghanistan Infrastructure       Roads and
                                                   Rehabilitation Program (AIRP) TO#    Transportation (2)
                                                   14 Operation and Maintenance
                                                   (O&M)/ Capacity Building (2)
                                                   Quick Response II
     New Mexico State University              1    Afghanistan Water, Agriculture       Agriculture
     (NEMESTUN)                                    and Technology Transfer (AWATT)
     Purdue University                        1    Advancing Afghan Agriculture         Agriculture
                                                   Alliance
     State University of New York             1    Afghanistan Parliamentary            Governance
                                                   Assistance Program (APAP II)
     United Nations Habitat                   1    Learning for Community               Basic Education
                                                   empowerment Program (LCEP II)



SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                  Page 32
                                             Number
     USAID Implementing Partners                   of     Mechanism Title                           Sectors
                                             Projects
     University of California, Davis                1     Pastoral Engagement, Adaptation           Agriculture
                                                          and Capacity Enhancement
                                                          (PEACE)
     Washington State University                    1     Afghan E-Quality Alliance                 Higher Education
     (WSU)
     Wildlife Conservation Society Inc              1     Biodiversity Conservation at the          Environment
                                                          Landscape Scale Program
     Source: SIGAR analysis of USAID data.
     Note: Solatia are the payments or other recompense for mental suffering or financial or other loss.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                          Page 33
APPENDIX VI: STATE DEPARTMENT BUDGET INFORMATION IN NANGARHAR PROVINCE

Appendix VI contains summary information related to State Department’s estimated development
expenditures in Nangarhar Province, including total estimated fiscal year 2009 and 2010 grant
disbursements (see table XI) and budget and expenditures under the Performance Based Governor’s
Fund in SY 1389 (see table XII).


     Table XI: State Department Grants for Nangarhar Province, Fiscal Years 2009
     and 2010 (Partial Year)
                                                                    Number of
     Funding Agency                                                                          Total
                                                                       Grants
     Bureau of Population Refugees and Migration                               3      $2,499,563
     Embassy Kabul                                                             8        $149,896
     Total                                                                  11        $2,649,459
     Source: SIGAR analysis of Department of State data.
     Note: Grant totals may include funding for multiple provinces. The list may be incomplete
     because the State Department does not require grants to be tracked by province.




   Table XII: Budget and Expenditures for Performance Based Governor's Fund SY 1389 (Partial Year)
   for Nangarhar Province
                        Hamal (21 March - 20 April)         Swar (21 April - 21 May)                      Total to date
   Category             Budget      Spent Variance         Budget      Spent Variance        Budget          Spent Variance
   Total               $25,000 $7,862          $17,138 $24,800 $25,759              -$959 $49,800 $33,621             $16,179
   Vehicle and          $8,600 $7,452          $1,148      $7,900 $15,703          -$7,803 $16,500 $23,155            -$6,655
   Equipment
   Transportation       $3,000            $0   $3,000      $3,000      $533        $2,467    $6,000           $533        $5,467
   Maintenance and $6,500                 $0   $6,500      $7,000         $0       $7,000 $13,500               $0    $13,500
   Repair of Public
   Facilities
   ICT and                   $0     $410        -$410          $0         $0           $0            $0       $410        -$410
   Communications
   Capacity Building    $2,500            $0   $2,500      $2,500        $23       $2,477    $5,000            $23        $4,977
   Community            $4,400            $0   $4,400      $4,400     $9,500       -$5,100   $8,800         $9,500        -$700
   Outreach
   Source: SIGAR analysis of PBGF data.
   Note: Total annual budget for Nangarhar is $300,000.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                                                  Page 34
APPENDIX VII: UN-HABITAT ACTIVITIES IN NANGARHAR PROVINCE

Appendix VII contains summary information related to UN-Habitat activities in Nangarhar throughout
FY 2009. Table XIII describes the number of projects under this program, delineated by various project
categories.


     Table XIII: Projects Conducted by UN-Habitat
     (United Nations Human Settlements
     Programme) in Nangarhar Province, FY 2009
                                             Number of
     Project Categories
                                               Projects
     Building                                        4
     Construction                                    3
     Education                                     291
     Human Capital Development                     118
     Health                                          1
     Irrigation                                     20
     Latrine                                         2
     Power                                          23
     Sanitation                                     44
     Shallow Well                                    1
     Shelter                                        21
     Transportation                                 64
     Water Supply                                   63
     Watsan (Water & Sanitation)                    34
     Total Projects                                689
     Source: SIGAR analysis of UNAMA data.




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                         Page 35
APPENDIX VIII: COMMENTS FROM U.S. FORCES – AFGHANISTAN




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance   Page 36
APPENDIX IX: COMMENTS FROM THE U.S. EMBASSY KABUL




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance   Page 37
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance   Page 38
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance   Page 39
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance   Page 40
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance   Page 41
SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance   Page 42
                 (This report was conducted under the audit project code SIGAR-008A).




SIGAR Audit-11-1 Anti-Corruption/Sub-National Governance                                Page 43
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
